                           UNITED STATES DEPARTMENT OF EDUCATION

                                              OFFICE OF INSPECTOR GENERAL




                                                       AUG 2 5 2003                                ED-OIGIA07 -C0030

Theresa S. Shaw
Chief Operating Officer
Federal Student Aid
U.S. Department of Education
830 18t Street, N.B.
Washington, DC 20202

Dear Ms. Shaw:

This Final Audit Report (Control No. ED-OIG/A07-C0030) presents the results of our
Address Match using the Department's Student Financial Assistance (SFA) application
processing and disbursement systems - the Federal Student Aid's (FSA) Central Processing
System (CPS) and National Student Loan Data System (NSLDS). Our audit objectives
were to identify addresses with unusual data applicant and student aid disbursement patterns
and to analyze those addresses for reasonableness. FSA officials generally concurred with
our findings and recommen<l:ations in their August 22, 2003, 1 response and will analyze the
data to determine appropriate corrective actions that may be warranted. FSA's full response
is provided as.an attachment to this letter.


                                                 AUDIT RESULTS

Our review of the FSA 2000-2001 CPS and NSLDS student data identified the following
unusual Free Application for Federal Student Aid (FAFSA) and disbursement information.

• 	 Multiple awardees of SFA funds used the same permanent home mailing address. A
    total of 8,888 individuals were awarded $64,753,086 in SFA funds using only 1,619
    different permanent home mailing addresses.

• 	 A wardees of SF A funds reported penal institutions as their permanent home mailing
    address. A total of99 individuals, awarded $560,125 in SFA funds, reported state
    penitentiaries or correctional facilities as their permanent home mailing addresses on
    their application.


1 FSA   revised its initial response to the draft report. This final report was reissued to address that response.

                                     400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-1510

             Our mission is to ensure equal access to education and to promote educational exceUence throughout the Nation.
• 	 Awardees of SFA funds reported no, or incomplete, mailing addresses. A total of 2,436
    individuals, awarded $25,653,328 in SFA funds, reported no, or incomplete, permanent
    home mailing address information on their applications.

GAO's Standards for Internal Controls in the Federal Government outlines control activities,
such as application controls, that are specific to information systems. Application controls
are designed to cover the processing of data within the application software. This category
of control is designed to help ensure completeness, accuracy, authorization, and validity of
all transactions during application processing. An example is computerized edit checks
built into the system to review the format, existence, and reasonableness of data. The
absence of application controls to identify multiple awardees with the same address,
addresses that are penal institutions, and field edit checks to identify and/or reject
applications with incomplete addresses allowed the data inconsistencies identified in our
audit to go undetected.

We found that the Department’s CPS and NSLDS systems do not contain application
controls to identify unusual address-related student aid disbursement patterns. Although the
Department’s CPS system contains controls verifying eligibility, such as, name, birth date,
and social security or immigration number, the system does not include more sophisticated
checks necessary to identify multiple applicants with the same address or applicants with
penal institution addresses. Without such controls, the Department may be missing an
opportunity to identify potential risks.

Multiple Awardees With The Same Address

The Department’s CPS system has no edit checks or exception reports for multiple
individuals using the same address as their permanent home mailing address on their
FAFSAs. We matched the information in CPS2 to NSLDS and, after eliminating
applications that were not awarded SFA funding, we found that 8,888 individuals were
awarded $64,753,086 using 1,619 different permanent home mailing addresses.

Table 1 summarizes the results of our work after sorting the information by street address
and stratifying the universe by number of awardees per address.




2
  From the 2000-2001 CPS database, we modified the universe for our analyses to include records for only
those addresses that showed five or more initial submissions with that address, regardless of whether or not the
applicants were awarded SFA funds.



                                                    2

Table 1. Results of Address Analysis
    Number of Awardees        Number of Unique          Total Number of         Total SFA funds
       per Address3              Addresses                 Awardees                Awarded
          > 100                        2                      761                         $2,496,250
         21 – 99                      33                     1,350                        $6,268,339
         11 – 20                      55                      792                         $5,093,292
         6 – 10                       215                    1,545                       $12,072,961
          2–5                        1,314                   4,440                       $38,822,244
          Total                      1,619                   8,888                       $64,753,086


Our analysis shows two addresses with more than 100 awardees, one with 604 and another
with 157. Both addresses are a variation of the same address. While it may not be unusual
to have more than one eligible student residing at one address, it is highly unlikely that there
are 761 eligible students having one permanent home mailing address. A red flag should go
up to indicate that further research should be done to validate the information.

FSA officials responsible for CPS and NSLDS data stated that it is possible that some of
these addresses are school addresses or dormitories. Further research indicated that many of
the addresses with multiple awardees were school addresses. However, the Department’s
school year 2000-2001 FAFSA instructions state that applicants “…must give a permanent
home mailing address (not a school or office address).”

The FSA officials stated that they could not see any advantage of adding application
controls up-front to identify multiple individuals using the same address. They indicated
that this could be a data mining activity that Case Management could use as an element of
risk in considering which schools to select for program reviews. The information could also
be used as an indicator in prioritizing the applications selected for verification. Each school
is required to verify no more than 30 percent of its total number of applicants for assistance
under Title IV (see 34 CFR § 668.54(a)(2)).

The FSA officials maintained that there was no legal requirement for applicants to use a
permanent home mailing address on the application, and they found no indication from our
analyses that multiple individuals using the same permanent home address presented a risk
for fraud. However, as discussed in the following section, we found that some of the
addresses with multiple individuals were penal institutions.

The Department routinely flags recipient applications in its Management Information
System (MIS) and provides weekly reports of the flagged information for follow-up and

3
 The modified universe of addresses with five or more applications was further modified to reflect awardees
of SFA funds. Our analyses address individuals awarded SFA funds as opposed to applicants.



                                                   3

verification. Examples of flags already used in the MIS are social security numbers and
date of birth. Our investigations office has been asked at times to identify additional flags
to add to the system – multiple recipients using the same permanent home address may be
an appropriate flag for that system.

Applications With Addresses Of Penal Institutions

The Department awarded Federal Pell Grant, FFEL, and Direct Loans to individuals using
state penitentiary addresses as the permanent home mailing address on their applications.
We found that, in 2001, 99 individuals were awarded $560,125 in Federal Pell Grant, FFEL
and Direct Loan program funds even though they reported penitentiaries as their permanent
home mailing address on their applications. Because regulations generally exclude
incarcerated students from receiving Title IV funds, the Department may have permitted
disbursement of SFA funds to ineligible students.

The student eligibility criteria outlined at 34 CFR § 668.32 (c)(2)(ii) (2000) states that

       A student is eligible to receive title IV, HEA program assistance if the student is not
       incarcerated in a Federal or State penal institution.

In addition, 34 CFR § 668.32 (c)(3) (2000) states that

       A student is eligible to receive title IV, HEA program assistance … [f]or purposes of
       the Federal Perkins Loan, FFEL and Direct Loan programs, [if the student] is not
       incarcerated.

Specifically, we found that

• 	 Sixty-five individuals reported 10 addresses listed as Indiana Department of Corrections
    facilities and were awarded a total of $380,933 in Federal Pell Grant, FFEL and Direct
    Loan program funds.

• 	 Twenty-four individuals reported 11 addresses listed as Texas Department of Criminal
    Justice Prisons and State Jails and were awarded $139,567 in Federal Pell Grant, FFEL,
    and Direct Loan program funds.

In a separate analysis of post office boxes, we identified ten more awardees reporting seven
different post office box addresses listed as California Department of Youth and Adult
Correctional Agency facilities. These ten individuals were awarded $39,625 in Federal Pell
Grant, FFEL and Direct Loan program funds. These individuals were identified only



                                             4

because we identified seven unusually numbered boxes in the entire universe of 225 post
office box addresses. Five of the seven were consecutively numbered boxes, three of which
had the same number with an additional direction of “MONO H” and “TIOGA”.

While there are no guidelines prohibiting the use of post office boxes as permanent home
mailing addresses, the Department should, at a minimum, be checking for unusual or
consecutively numbered boxes. Without a mechanism to match addresses to all penal
institutions, the Department risks improperly disbursing funds to prisoners.

FSA officials responsible for the CPS and NSLDS data stated that incarcerated people are
entitled to Federal aid, just not Pell Grants. The regulations are clear that a student
incarcerated in a Federal or state penal institution is not eligible for Pell Grant, FFEL, and
Direct Loans. All of the 98 individuals using penal institutions addresses identified above
were awarded Pell Grants, FFEL, and/or Direct Loans.

FSA officials also stated that the Department systems are not used to determine student
eligibility, but that the Department relies on school certification, lender determination,
guarantor assessment, and finally the Common Origination and Disbursement System
(CODS). Despite these numerous layers of eligibility determination, our investigators
continue to identify fraud and abuse in SFA programs. The reliance on others to determine
eligibility does not negate FSA’s responsibility for assuring that it has adequate controls to
prevent or reduce the likelihood of distributing SFA funds to ineligible students.

Incomplete Addresses

The Department’s CPS system permitted the award of SFA funds to individuals reporting
no, or incomplete, permanent home mailing address information and addresses with
numerical data in the city field of the record layout.

The FAFSA instructions for completing the application state that a student must give a
permanent home mailing address. Without obtaining the applicants’ complete address the
Department cannot ensure SFA is not awarded to individuals who may fraudulently
misrepresent their identity.

We identified 2,436 individuals who were awarded $25,653,328 even though they reported
no, or incomplete, permanent home mailing address information on their applications.
Without complete address information, the Department may 1) find it difficult to validate
the application to determine student eligibility, and 2) risk making payments to ineligible
students. We also identified 274 addresses with a numeric in the “city” field. A check for



                                             5

required information would have eliminated incomplete addresses on the application and
may have identified inconsistent data in the specific fields of the application record layout.

FSA officials responsible for the CPS and NSLDS systems maintained that the FAFSA
included sufficient direction for the applicant to be awarded SFA funds. According to these
officials, the FAFSA on the web contains basic edit checks for numeric/non-numeric fields
and for city, state, and zip code. FSA officials added that the website is completely
redeveloped each program year to refine and/or change edit checks based on the previous
year’s program experience. They stated that the current edit checks require two of the three
fields for city, state, and zip code. They indicated that they were surprised that we found
numeric data in the “city” field; however, they maintained that FSA only needs the zip code
to be able to contact the applicant and the current edit checks required at least one more
field – city or state. However, the lack of a complete address may preclude follow-up to
determine eligibility or substantiate the schools’, lenders’, or guarantors’ determination of
eligibility.

CONCLUSION

Our analyses of the CPS and NSLDS databases identified questionable address data, which,
at a minimum, should have provided a red flag indicating that further research was
necessary before awarding SFA funds. Because the Department’s systems do not include
checks of the data to identify unusual applicant address related student aid disbursement
patterns, funds may have been disbursed to ineligible recipients. Without controls/checks to
identify unusual data patterns and reject applications with missing information, the
Department is missing a potential opportunity to identify fraud before SFA funds are
disbursed.

RECOMMENDATIONS

We recommend that the Chief Operating Officer for FSA require a cost benefit analysis on a
CPS system modification or additional MIS flags that would add the necessary application
controls and proceed accordingly. Specifically, the cost benefit analysis should address
application controls designed to flag applications with

• 	 Excessive numbers of applications containing the same permanent home mailing
    address.

• 	 Federal or State penitentiaries’ addresses as its permanent home mailing address.




                                             6

•   Inconsistent data fields or missing information in required fields, including address.

We also recommend that the Chief Operating Officer for FSA ensure that 1) schools
identified with unusual applicant data and student aid disbursement patterns are provided to
Case Management for use as an element of risk in determining which schools to select for
program reviews; and 2) the information is used as an indicator in prioritizing recipients for
school verification.

FSA Comments

FSA officials generally concurred with our findings and recommendations and will analyze
the data to determine appropriate corrective actions that may be warranted.


                                                BACKGROUND

In fiscal year 2001, the U.S. Department of Education awarded $65.6 billion in student
financial assistance programs through 15.5 million awards to 7.6 million students. Of the
total amount awarded,4 $52.5 billion was in the form of student loans, $9.9 billion in
Federal Pell Grants, with the remaining $3.3 billion in a combination of campus-based
awards.

Because of the inherent nature of the program and the large amounts disbursed, Federal
student financial assistance has historically been subject to recipient fraud, waste, and
abuse.5 Since 1990, GAO has considered the Department’s student financial assistance
programs as high-risk for fraud, waste, abuse, and mismanagement. GAO attributed the
high-risk designation to the Department’s history of financial management problems and the
lack of internal controls needed to maintain the integrity of their operations. In addition,
GAO reported that weaknesses in information systems controls increase the risk of
disruption in services and make Education’s loan data vulnerable to unauthorized access,
inadvertent or deliberate misuse, fraudulent use, improper disclosure, or destruction, all of
which could occur without detection.

As required by the Higher Education Act as amended (HEA), the Department has
established data matches with the Social Security Administration, the Immigration and


4
  Reported from FSA’s web page and the total does not equal the sum of the individual awards due to

rounding. 

5
  Recipient fraud includes falsification of income, identity theft, falsification of eligibility status, and 

fraudulent loan discharges. 




                                                        7

Naturalization Service, and Selective Service to match the name, date of birth, social
security number, immigration status, and Selective Service registration status of applicants.


                       OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to identify addresses with unusual data applicant and student aid
disbursement patterns and to analyze those addresses for reasonableness.

To accomplish our audit objectives we

•	   Reviewed applicable Federal laws and regulations, Department policy and guidance, and
     program information available in reports and on the Internet;

•	   Interviewed officials from the Department’s Federal Student Aid Office;

•	   Reviewed and analyzed data contained in the Department’s Central Processing System
     and the National Student Loan Data System; and

•	   Researched selected awardees’ addresses using the Internet.

In order to accomplish our objectives, we relied extensively on computer-processed data
contained in Department’s Central Processing System and the National Student Loan Data
System. We performed a limited data reliability assessment in matching the address data
between CPS and NSLDS databases. To perform the assessment we used logical tests,
which included checks for missing data, relationship of data elements, expected values, etc.
As discussed in the AUDIT RESULTS section of this report, our initial testing identified
unusual applicant data and student aid disbursement patterns because the database systems
lacked adequate system controls in the form of edit checks. Based on these findings from
the initial testing, we did not perform any additional testing of system controls.

We researched a judgmentally selected sample from the universe6 of multiple awardees
using the same address in order to determine the validity of the address. The sample
reviewed included 42 percent of that universe. Specifically, the sample consisted of
100 percent review of addresses with more than 100 individuals per address; 88 percent of
addresses with between 21 to 99 individuals; 64 percent of addresses with between 11 to 20
individuals; 47 percent of addresses with between 6 to 10 individuals; 37 percent of
addresses with between two to five individuals; and 76 percent of the addresses with one
6
  From the 2000-2001 CPS database, we modified the universe for our analyses to include records for only
those addresses that showed five or more initial submissions with that address, regardless of whether or not the
applicants were awarded SFA funds.



                                                    8

individual. We did not review addresses that were not awarded any SFA funds. Our
research of the judgmentally selected sample indicated that many of the addresses with
multiple awardees were school addresses; however, as discussed in the AUDIT RESULTS
section of this report, we also found addresses of penal institutions and addresses with
insufficient information for us to properly identify the address location.

We performed fieldwork at FSA offices in Washington, D.C. and at our offices in Kansas
City, Missouri. Our fieldwork was conducted from September 9, 2002, to April 11, 2003.
Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of our review.

                    STATEMENT OF MANAGEMENT CONTROLS

As part of our review we assessed the system of management controls, policies, procedures,
and practices applicable to the CPS and NSLDS systems. Our assessment was performed to
determine the level of control risk for determining the nature, extent, and timing of our
substantive tests to accomplish the audit objectives.

For the purpose of this report, we assessed and classified the significant controls into the
following categories:

   Student eligibility; and

   Award of the Federal Student Aid’s SFA program funds.

Because of inherent limitations, a study and evaluation made for the limited purpose
described above would not necessarily disclose all material weaknesses in the management
controls. However, our assessment disclosed management control weaknesses. These
weaknesses relate to insufficient application controls over applicant permanent mailing
address data. These weaknesses and their effects are fully discussed in the AUDIT
RESULTS section of this report.


                               ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
Department of Education officials.




                                             9

Corrective actions proposed (resolution phase) and implemented (closure phase) by your
office(s) will be monitored and tracked through the Department's automated audit tracking
system. ED policy requires that you develop a proposed Corrective Action Plan (CAP) in
the automated system within 60 days of the issuance of this report. The CAP should set
forth the specific action items, and targeted completion dates, necessary to implement final
corrective actions on the findings and recommendations contained in this final audit report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the number of audits unresolved.
In addition, any reports unresolved after 180 days from the date of issuance will be shown
as overdue in our reports to Congress.

In accordance with Freedom of Information Act (5 U.S.C. §522), reports issued by the
Office of Inspector General are available, if requested, to members of the press and general
public to the extent information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you have any questions,
please call William T. Allen at (816) 268-0501.




                                    /~
                                             ~~
                                              HelenLew
                                  r     V'    Assistant Inspector General for Audit Services

c.c. 	 William J. Leidinger, Assistant Secretary for Management and Chief Information Officer
       Jerry Schubert, Acting Chief Information Officer, FSA

Attachment




                                             10 

                                            FEDERAL 

                                            STUDENT AID 

                                            w.; Help Put America Through School




                                 CHIEF OPERATING OFFICER 



                                       August 22, 2003 


Mr. William T. Allen
Regional Inspector General for Audit
Office of Inspector General
8930 Ward Parkway, Suite 2401
Kansas City, MO 64114

Dear Mr. Allen,

This is in response to your draft audit report (Control No. ED-OIG/A07-C0030) issued
May 13,2003, presenting the results of your Address Match using the Department's
Student Financial Assistance application processing and disbursement systems.

Although FSA does not agree that a system change is necessary at this time, based on the
information provided in the report, we believe that the report has provided valuable
information and raised important issues requiring further analysis. My staffhave
contacted your office and requested the underlying data on the applicants identified in
your report. Our immediate priority is to review the addresses of those applicants
residing in state penitentiaries or correctional facilities. Incarcerated persons are not
eligible for loan funds, and if incarcerated persons are in a Federal or state penitentiary
those persons are also not eligible for Pell grants, thus we need to perform follow-up
work as necessary to determine whether or not the persons identified in your match were
eligible for the funds they received.

In addition, further analysis and follow-up is necessary on the entire population identified
to determine the full extent of any possible problems regarding applicant eligibility and
school compliance. In the near-term, this follow-up will feed into current analysis to
determine: 1) whether or not a flag in the current application processing system is
appropriate to identify possible ineligible students or the need to follow up at schools that
may be enrolling and providing aid to ineligible students; or 2) whether or not other near­
term actions might be more appropriate. This analysis is particularly important since
over 80% of the population and nearly 60% of the dollars identified in the report relate to
recipients where 2-5 recipients had the same address. There are valid explanations as to
why more than one recipient might reside at the same address that would be included in
this population, including college students sharing dormitories and apartments. A full
understanding of the information is necessary before recommending changes to the
application system controls. In the long-term, your report findings and our subsequent
analysis and follow-up will be used to inform FSA's on-going data strategy efforts, which
include plans to improve our enterprise data quality and program integrity efforts through

                          830 First Street, NE, Washington, D.C. 20202 

                                         1-800-4-FED-AID 

                                      www.studentaid.ed.gov 

Page 2 - Mr. William T. Allen


better analytics, including more robust data-mining capabilities and enhanced analysis on
this type of information.

Although your report did not identify any inappropriately awarded funds, we recognize
the need to continually review our systems to ensure that we are providing the right
dollars to the right students at the right time. We take this responsibility seriously. We
look forward to receiving the underlying data on the population of students identified in
your audit so that we can perform the additional analysis and follow-up described and
continue to work with you on this issue.

                                              Sincerely, ........,.,



                                              Theresa S. Shaw


cc: 	 Patrick J. Howard
      Helen Lew
      William J. Leidinger
      Gerald T. Schubert
